1a
[SEAL]
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
————————————————————
NO. WR-27,079-02
================================================
EX PARTE KENNETH RAY STRICKLAND,
Applicant
===========================================================================================
ON APPLICATION FOR A WRIT
OF HABEAS CORPUS
CAUSE NO. 07CR0510-83-1 IN THE
122ND DISTRICT COURT
FROM GALVESTON COUNTY
===========================================================================================
Per curiam.
ORDER
Applicant was convicted of attempted escape and
sentenced to ninety-nine years’ imprisonment. The
Fourteenth Court of Appeals affirmed his conviction.
Strickland v. State, No. 14-08-00011-CR (Tex. App.—
Houston [14th Dist.] June 25, 2009) (not designated for
publication). Applicant filed this application for a writ
of habeas corpus in the county of conviction, and the
district clerk forwarded it to this Court. See TEX. CODE
CRIM. PROC. art. 11.07.

2a
Applicant alleges that his trial counsel was ineffective for failing to move for a directed verdict on the
basis that the State had not presented sufficient evidence to corroborate Applicant’s custodial confession
and satisfy the corpus delicti rule, and on the basis that
the evidence proving commission of assault on a public
servant did not amount to proof of the offense of attempted escape. Applicant also alleges that trial counsel committed structural error by conceding during
summation at the guilt/innocence phase that Applicant was attempting to escape from the Galveston
County Jail, but arguing that he did not use or exhibit
a deadly weapon or commit the offense of attempted
capital murder with which he was also charged.
Applicant alleges that appellate counsel was ineffective for failing to argue on appeal that the evidence
was legally insufficient to satisfy the corpus delicti rule
and to support the conviction for attempted escape.
After conducting a hearing and hearing arguments, the trial court made findings of fact and conclusions of law, finding that both trial counsel and
appellate counsel were ineffective and recommending
that relief in the form of either a new trial or a new
appeal be granted. However, the trial court’s findings
of fact, conclusions of law and recommendations are

3a
not supported by the record. Based on the this Court’s
independent review of the entire record, relief is denied.
Filed: July 1, 2020
Do not publish

4a
IN THE 122nd DISTRICT COURT
OF GALVESTON COUNTY, TEXAS
EX PARTE
KENNETH RAY
STRICKLAND

§
§ CAUSE NO. 07CR0510-83-1
§
[JE]
§

APPLICANT’S PROPOSED [JE]
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
The court, having considered the application for a
writ of habeas corpus, the brief, the exhibits, the State’s
answer, and the official court records and testimony
from the trial, enters the following findings of fact and
conclusions of law:
I.
THE TRIAL
1. Strickland struck a deputy in the throat with
a metal rod in the Galveston County Jail on January
25, 2007.
2. Strickland made a post-arrest videotaped
statement that he was trying to force the deputy into
a bathroom so he could take his uniform and escape.
3. Strickland was indicted for attempted capital
murder and attempted escape using a deadly weapon
(second offender).

5a
4. Robert Monks and Elisa Vasquez represented
Strickland at trial.
5. Monks did not move for a directed verdict on
the grounds that the State failed to prove the corpus
delicti of attempted escape and that an assault on a
deputy does not constitute an attempted escape from
the jail.
6. Monks argued during summation that Strickland was not guilty of attempted capital murder because he did not intend to kill the deputy and did not
use the rod as a deadly weapon but he was guilty of
attempted escape based on his confession.
7. The prosecutor argued during summation
that Strickland was guilty of both offenses because he
tried to kill the deputy to obtain his uniform so he
could leave the jail and the rod could be a deadly
weapon if it struck someone in the throat or eye.
8. The jury acquitted Strickland of attempted
capital murder but convicted him of attempted escape
using a deadly weapon and, after he pled true to the
enhancement paragraph, assessed his punishment at
99 years in prison.
THE APPEAL
9.
peal.

Mark Stevens represented Strickland on ap-

10. Stevens did not raise the issues that the evidence was legally insufficient to prove the corpus

6a
delicti of attempted escape and to prove that Strickland attempted to escape from the jail.
11. Strickland’s conviction was affirmed. Strickland v. State, 2009 WL1795025, No.14-08-0011-CR
(Tex. App.—Houston [14th Dist.] June 25, 2009, no
pet.).
THE DOCTRINE OF LACHES
12. The doctrine of laches does not bar consideration of the merits of habeas corpus claims that trial
counsel and appellate counsel were ineffective in failing to challenge the sufficiency of the evidence to sustain the conviction and that trial counsel was
ineffective in conceding guilt during his summation.
13. If the State had to retry the case, it would not
be materially prejudiced because the deputy and videotapes of the incident and the confession are available.
INEFFECTIVE ASSISTANCE OF COUNSEL
AT THE GUILT-INNOCENCE STAGE
14. The evidence was legally insufficient to prove
the corpus delicti of attempted escape because the
State did not corroborate Strickland’s confession that
he intended to escape from the jail. See Brown v. State,
576 S.W.3d 36, 43 (Tex. Crim. App. 1978).
15. The evidence also was legally insufficient to
sustain the conviction because an assault on a deputy
does not constitute an attempted escape from the jail.

7a
Cf. Young v. State, 622 S.W.2d 99, 100-01 (Tex. Crim.
App. 1981).
16. Monks performed deficiently in failing to
move for a directed verdict on these grounds.
17. Had Monks moved for a directed verdict on
these grounds, the court would may [JE] have granted
it.
18. Monks performed deficiently in conceding
during summation that Strickland was guilty of attempted escape based on his confession instead of arguing that an assault on a deputy did not constitute an
attempted escape from the jail and that Strickland
could not be convicted of attempted escape based solely
on his confession. See McCoy v. Louisiana, 138 S.Ct.
1500, 1509 (2018); Turner v. State, 570 S.W.3d 250, 27677 (Tex. Crim. App. 2019).
19. Monks’ concession of guilt during summation
constituted structural error that requires a new trial
without a showing of harm. McCoy, 138 S.Ct. at 151112.
INEFFECTIVE ASSISTANCE
OF COUNSEL ON APPEAL
20. Stevens performed deficiently in failing to
raise on appeal the issues that the evidence was legally
insufficient to prove the corpus delicti of attempted escape and that Strickland attempted to escape from the
jail.

8a
21. Had Stevens raised these issues, there is a
reasonable probability that an appellate court would
have reversed the conviction and acquitted Strickland.

IN THE 22nd DISTRICT COURT
OF GALVESTON COUNTY, TEXAS
EX PARTE
KENNETH RAY
STRICKLAND

§
§
CAUSE NO. 07CR0510-A
§
§
ORDER

The court recommends an acquittal [JE], a new
trial, or an out-of-time appeal. The District Clerk is ordered to prepare a transcript of all papers in this cause
and send it to the Court of Criminal Appeals as provided by article 11.07 of the Code of Criminal Procedure. The transcript shall include certified copies of the
following documents:
a.

the indictment and judgment;

b.

the application for a writ of habeas corpus;

c.

the brief;

d.

the exhibits;

e.

the order designating issues;

f.

the State’s answer;

9a
g.

the appellate
07CR0510;

record

in

cause

number

h.

the applicant’s proposed findings of fact and
conclusions of law;

i.

the State’s proposed findings of fact and conclusions of law, if any;

j.

the Court’s findings of fact and conclusions of
law; and

k.

any objections filed by either party to the
Court’s findings of fact and conclusions of law.

The District Clerk shall send a copy of this order
to applicant, his counsel, and counsel for the State.
SIGNED and ENTERED on April 22, 2020.
/s/ John Ellisor
John Ellisor
Judge Presiding

10a
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
7/21/2020

Tr. Ct. No. 07CR0510-83-1
WR-27,079-02

STRICKLAND, KENNETH RAY
This is to advise that the applicant’s suggestion for reconsideration has been denied without written order.
Deana Williamson, Clerk

11a
2009 WL 1795025
Only the Westlaw citation is currently available.
SEE TX R RAP RULE 47.2 FOR DESIGNATION
AND SIGNING OF OPINIONS.
MEMORANDUM OPINION
Do Not Publish-Tex. R.App. P. 47.2(b).
Court of Appeals of Texas,
Houston (14th Dist.).
Kenneth Ray STRICKLAND, Appellant
v.
The STATE of Texas, Appellee.
No. 14-08-00011-CR.
|
June 25, 2009.
On Appeal from the 122nd District Court, Galveston
County, Texas, Trial Court Cause No. 07CR0510.
Attorneys and Law Firms
Mark W. Stevens, for Kenneth Ray Strickland.
Kurt Sistrunk, for The State of Texas.
Panel consists of Justices YATES, SEYMORE, and
BOYCE.
MEMORANDUM OPINION
CHARLES W. SEYMORE, Justice.
Kenneth Ray Strickland appeals his conviction for
attempted escape using or threatening to use a deadly
weapon. In five issues, he contends the evidence is legally and factually insufficient to prove “use or display”
of a deadly weapon, the jury charge was fundamentally

12a
defective, and the trial court erred by failing to grant a
new trial on the ground that distribution of a form to
prospective jurors regarding their right to donate their
compensation to agencies serving crime victims violated appellant’s constitutional rights. Because all
dispositive issues are settled in law, we issue this memorandum opinion and affirm. See Tex. R. App. P. 47.4.
I.

BACKGROUND

According to the State’s evidence, on January 25,
2007, appellant was incarcerated in the Galveston
County jail. Deputy Bruno Pham-Ky was handing
lunch trays to inmates in a secured area. When Deputy
Pham-Ky handed appellant a tray, appellant advanced
toward him and forced the end of a metal rod against
his throat. Although Deputy Pham-Ky used the word
“stabbed” at trial, the rod caused a bruise or abrasion
but did not penetrate his throat. Appellant and Deputy
Pham-Ky struggled as appellant tried to push Deputy
Pham-Ky toward a restroom. Deputy Pham-Ky diverted the rod away from his throat by grabbing appellant’s wrist/hand area. Another officer came to Deputy
Pham-Ky’s aid and eventually subdued appellant. During the struggle, Deputy Pham-Ky also sustained
bruised fingers on his left hand and a sprained left
wrist. He received medical treatment the same day.
Appellant gave a statement to an investigating
officer. Appellant admitted he attempted to escape but
claimed he did not intend to hurt or kill Deputy PhamKy. Appellant gave several somewhat inconsistent

13a
explanations for his actions: he was trying to threaten
Deputy Pham-Ky; he thought jail officials would not
hinder his escape if he took Deputy Pham-Ky hostage
by holding the rod; or he wanted to take Deputy PhamKy’s uniform.
Appellant was charged with attempted capital
murder and attempted escape using or threatening to
use a deadly weapon. The jury acquitted him of attempted capital murder but found him guilty of attempted escape using or threatening to use a deadly
weapon. In answer to a special issue, the jury also
made an affirmative finding that appellant “used or
exhibited a deadly weapon, to-wit: a metal rod” during
commission of the offense. Appellant pleaded “true” to
an enhancement paragraph. The jury assessed a sentence of ninety-nine years’ confinement.
II.

LEGAL-SUFFICIENCY AND
JURY-CHARGE ISSUES

Appellant’s first two issues are interrelated, and
he presents one argument to support both issues. In
his first issue, appellant states the evidence was legally insufficient to support the finding of “use or display” of a deadly weapon. In his second issue, appellant
asserts the charge was fundamentally defective because “it did not require the jury to find that a deadly
weapon was used to ‘effect’ an escape and did not support the sentence imposed.” Although appellant refers
to legal sufficiency of the evidence, he actually contends the trial court submitted in the jury charge an

14a
offense that does not exist under Texas law: attempted
escape using or threatening to use a deadly weapon.
Appellant also contends that, even if such an offense
exists, the State “forfeited that option” because the
charge was improperly worded.1
A person commits an offense if he escapes from
custody when he is “under arrest for, charged with, or
convicted of an offense.” Tex. Penal Code Ann.
§ 38.06(a)(1) (Vernon Supp. 2008). This offense is a
Class A misdemeanor, subject to certain exceptions. Id.
§ 38.06(b). Pertinent to this case, the offense is a firstdegree felony “if to effect his escape the actor . . . uses
or threatens to use a deadly weapon.” Id. § 38.06(e)(2).
Relative to criminal attempt, a person commits an offense “if, with specific intent to commit an offense, he
does an act amounting to more than mere preparation
that tends but fails to effect the commission of the
offense intended.” Tex. Penal Code Ann. § 15.01(a)
1

Appellant’s first argument seems more like a challenge to
the indictment because the jury charge merely tracked the offense
as alleged in the indictment. Appellant did not object to the indictment. See Tex. Code Crim. Proc. Ann. art. 1.14(b) (Vernon
2005) (providing, defendant waives right to object to defect, error,
or irregularity of form or substance in indictment and may not
raise objection on appeal if he failed to object before commencement of trial). Nonetheless, he also failed to object to the jury
charge. If a defendant fails to object to error in the jury charge, a
reviewing court will reverse “only if the error is so egregious and
created such harm that he has not had a fair and impartial trial.”
Almanza v. State, 686 S.W.2d 157, 171 (Tex. Crim. App. 1984).
Appellant does not mention his failure to object or the egregiousharm standard. However, we need not decide whether he waived
error or determine the applicable harm standard because we reject his contentions.

15a
(Vernon 2003). An attempt offense is one category
lower than the offense attempted. Id. § 15.01(d).
Appellant contends the attempt statute cannot be
applied to the first-degree felony offense proscribed under section 38.06(e)(2). He suggests he was harmed by
submission of the allegedly non-existent offense because he was subjected to a greater range of punishment than for a lesser offense. Attempted escape using
or threatening to use a deadly weapon is a seconddegree felony. See Tex. Penal Code Ann. § 38.06(e); Tex.
Penal Code Ann. § 15.01(d). However, because appellant was previously convicted of a felony, he was subject to punishment as a first-degree felon. See Tex.
Penal Code Ann. § 12.42(b) (Vernon Supp. 2008).
To determine whether the Legislature intended
for the attempt statute to apply to an offense, we consider the plain meaning of the statutes and apply their
meanings accordingly, unless the language is ambiguous or the result would lead to absurd consequences.
Strong v. State, 87 S.W.3d 206, 215 (Tex. App.-Dallas
2002, pet. ref ’d) (citing Boykin v. State, 818 S.W.2d 782,
785 (Tex. Crim. App. 1991)). As appellant emphasizes,
section 38.06(e)(2) requires that the actor use or
threaten to use a deadly weapon to “effect” an escape.
Tex. Penal Code Ann. § 38.06(e)(2) (emphasis added).
Appellant argues it is impossible for a person to attempt to commit this offense because “effect” contemplates a completed escape. We disagree. Clearly, a
conviction for any offense, except attempt, necessarily
contemplates an “effected” offense; i.e. the person completed the offense. Nevertheless, a person may be

16a
convicted for attempting an offense even if he fails
to “effect” the offense. See Tex. Penal Code Ann.
§ 15.01(a). Therefore, under the plain meanings of section 38.06(e)(2) and the attempt statute, a person can
attempt to “effect” an escape using or threatening to
use a deadly weapon.
Appellant cites Strong as authority that not every
offense is capable of being attempted within the meaning of the attempt statute. In Strong, the court held
that an offense of attempted driving while intoxicated
(“DWI”) does not exist under Texas law. 87 S.W.3d at
214-19. The court recognized that the attempt statute
requires “specific intent to commit” the offense attempted whereas the Legislature has expressly provided that proof of a culpable mental state is not
required for a DWI conviction. Id. at 217 (citing Tex.
Penal Code Ann. §§ 15.01, 49.11(a)). Thus, by dispensing with the requirement of proving a culpable mental
state for DWI, the Legislature expressed a clear intent
that the attempt statute not apply to DWI. Id.
The court further concluded that applying the attempt statute to DWI would lead to an absurd result.
Id. at 218-19. A person commits DWI if he “ ‘is intoxicated while operating a motor vehicle in a public
place.’ ” Id. at 215 (quoting Tex. Penal Code Ann.
§ 49.04(a)). “Operating a motor vehicle” has been interpreted very broadly as “ ‘the defendant took action to
affect the functioning of his vehicle in a manner that
would enable the vehicle’s use.’ ” Id. (quoting Barton v.
State, 882 S.W.2d 456, 459 (Tex. App.-Dallas 1994, no
pet.)). Because the actor need not succeed in causing

17a
the vehicle to function to be operating it, the same conduct constituting attempted DWI would necessarily
constitute DWI. Id. at 215-16, 218 (citing Freeman v.
State, 69 S.W.3d 374, 376 (Tex. App.-Dallas 2002, no
pet.); Barton, 882 S.W.2d at 459-60). Despite engaging
in the same conduct, a person convicted of attempted
DWI would not be subject to the more severe penalties
for DWI which are intended to protect the public and
deter commission of the offense. Id. at 218. The court
concluded that the Legislature could not have intended
the absurd result of vastly different consequences for
essentially the same conduct. Id. at 218-19.
Appellant raises no valid argument why the reasoning employed in Strong applies in this case. For instance, he presents no argument that the attempt
statute cannot apply to the offense of escape based on
the culpable mental states required for the offense.
Further, unlike Strong, the attempt is not subsumed
within the offense such that any conduct constituting
an attempt also establishes the offense, but the defendant avoids the more severe punishment for the completed offense. Appellant urges that the Legislature
intended to reserve the more serious consequences associated with using or threatening to use a deadly
weapon to situations in which the defendant actually
completes the escape. However, he does not cite any
portion of the Penal Code expressing such intent or any
case supporting his position. In fact, the court of criminal appeals has affirmed a conviction for the felony offense of “attempted escape with a deadly weapon”
(under the previous version of the escape statute later

18a
renumbered as section 38.06), although whether such
an offense actually exists was apparently not at issue
in that case. See Whitlow v. State, 609 S.W.2d 808, 80810 (Tex. Crim. App. 1980). Moreover, recognizing an attempt offense in this case would not be detrimental to
the public welfare or lead to an absurd result. Rather,
appellant is subjected to more serious consequences
than applicable to mere attempted escape because he
used or threatened to use a deadly weapon.
Appellant also suggests that, even if the offense of
attempted escape using or threatening to use a deadly
weapon exists under Texas law, it was not properly
submitted in the jury charge. He contends the trial
court used the language “during the commission of the
offense” instead of “to effect his escape” when inquiring
about use of a deadly weapon. However, appellant cites
the separate special issue submitted to the jury; it answered affirmatively when asked whether appellant
used or exhibited a deadly weapon “during commission
of the offense of which you have found him guilty.”
The language “to effect his escape” was correctly
used in the portion of the charge first asking whether
appellant committed the offense of attempted escape
using or threatening to use a deadly weapon. Specifically, the trial court instructed the jury that “a person
commits escape using or threatening to use a deadly
weapon when, if to effect his escape as defined above,
he uses or threatens to use a deadly weapon” and also
provided the requirements for finding “attempt.” See
Tex. Penal Code Ann. §§ 38.06(e)(2); 15.01(a).

19a
Accordingly, we overrule appellant’s first and second issues.
III.

FACTUAL SUFFICIENCY OF EVIDENCE

In his third issue, appellant contends the evidence
is factually insufficient to support the jury’s finding of
“use or display” of a deadly weapon.2 In examining a
factual-sufficiency challenge, we view all evidence in a
neutral light and set aside the verdict only if (1) the
evidence is so weak that the verdict seems clearly
wrong or manifestly unjust, or (2) the verdict is against
the great weight and preponderance of the evidence.
See Marshall v. State, 210 S.W.3d 618, 625 (Tex. Crim.
App. 2006); Watson v. State, 204 S.W.3d 404, 414-15
(Tex. Crim. App. 2006); Cain v. State, 958 S.W.2d 404,
407 (Tex. Crim. App. 1997). Although we are permitted
to substitute our judgment for the jury’s when considering credibility and weight determinations, we may
do so only to a very limited degree and must still afford due deference to the jury’s determinations. See
Marshall, 210 S.W.3d at 625.
Appellant does not dispute that he brandished the
metal rod but contends the evidence is factually insufficient to establish it constituted a deadly weapon. The
jury was instructed that a deadly weapon is “anything
2

It is not clear whether appellant challenges the finding that
he used or threatened to use a deadly weapon as an element of
the offense or the affirmative finding that he “used or exhibited”
a deadly weapon in response to the separate special issue, or both.
Accordingly, we will address them together.

20a
that in the manner of its use or intended use is capable
of causing death or serious bodily injury.” See Tex. Penal Code Ann. § 1.07(a)(17)(B) (Vernon Supp. 2008).
Several factors may be considered when determining
whether an object is a deadly weapon: (1) physical
proximity between the victim and the object; (2)
threats or words used by the assailant; (3) size and
shape of the object; (4) the object’s ability to inflict
death or serious injury; and (5) the manner in which
the defendant used the object. In re S.B., 117 S.W.3d
443, 446-47 (Tex. App.-Fort Worth 2003, no pet.); Nash
v. State, 115 S.W.3d 136, 140 (Tex. App.-Texarkana
2003, no pet.). No single factor is determinative, and
each case must be examined on its own facts. In re S.B.,
117 S.W.3d at 447; Nash, 115 S.W.3d at 140. Further,
the wounds inflicted may be considered, although it is
not necessary the object inflict any injury before it is
declared a deadly weapon. English v. State, 171 S.W.3d
625, 628 (Tex. App.-Houston [14th Dist.] 2005, no pet.).
In this case, the evidence demonstrates the metal
rod had been removed from its intended purpose as
part of a mop bucket apparatus. During normal use,
the rod would have a plastic bolt on each end. A plastic
bolt had been removed from one end of the rod at issue
leaving bare threaded metal. The rod was seven and a
half inches long. Deputy Pham-Ky testified appellant
pushed the rod against his throat with such force that
he thought his neck had been broken and he “was
dead.” He feared appellant would kill him if he did not
fight back. Deputy Pham-Ky opined that a rod of this
type would be a deadly weapon if “sufficiently shoved

21a
into a person’s throat near the jugular or eye socket
with enough force.”
Appellant contends Deputy Pham-Ky exaggerated
or fabricated his claim that appellant “jammed” the rod
into his throat. Appellant suggests the bruise to Deputy Pham-Ky’s throat was not caused by appellant’s actions because photographs showing the injuries to
Deputy Pham-Ky’s throat and left hand were taken at
different times and he did not complain to emergency
room personnel about any throat injury, although a
nurse later documented the injury. However, the fact
these photographs were taken at different times does
not outweigh Deputy Pham-Ky’s testimony that he incurred the throat bruise as a result of appellant’s actions. Moreover, the jury could have rationally inferred
Deputy Pham-Ky did not complain of the throat bruise
to emergency room personnel because the injury to his
hand caused more damage and was his primary concern.
Appellant also argues he would have penetrated
and caused “very serious damage” to Deputy PhamKy’s throat if his description of the force used were
credible. However, Deputy Pham-Ky believed the rod
did not penetrate his throat because he moved backwards in the same direction as the force and then used
sufficient strength to divert the rod away from him. Accordingly, the jury could have reasonably concluded
that the rod “in the manner of its use or intended use
[was] capable of causing death or serious bodily injury,”
but Deputy Pham-Ky prevented such consequences by
struggling with appellant.

22a
Finally, appellant suggests the jury must have rejected Deputy Pham-Ky’s testimony by acquitting appellant of attempted capital murder. However, the jury
could have concluded that appellant intended to inflict
serious bodily injury to facilitate his escape but did not
intend to kill the deputy. Alternatively, it is not necessary the actor intend death or serious bodily injury;
only that the actor intends to use the object in a manner rendering it capable of causing death or serious
bodily injury. Id. at 628. Therefore, the jury could have
inferred appellant used the rod in a manner that rendered it capable of causing serious bodily injury or
death regardless of whether he intended to do so. Accordingly, acquittal on the attempted-capital-murder
charge does not indicate the jury found Deputy PhamKy lacked credibility regarding the amount of force
used by appellant. Because the evidence is factually
sufficient to support the finding that appellant used or
threatened to use a deadly weapon as an element of
the offense and the affirmative finding that he used or
exhibited a deadly weapon, we overrule his third issue.
IV. DISTRIBUTION OF FORM TO JURY PANEL
In his fourth and fifth issues, appellant contends
the trial court erred by failing to grant a new trial on
the ground that distribution of a form to prospective
jurors regarding their right to donate their compensation to agencies serving crime victims violated appellant’s federal and state constitutional rights.

23a
Texas Government Code section 61.003 requires
distribution of such a form:
(a) Each person who reports for jury service
shall be personally provided a form letter that
when signed by the person directs the county
treasurer to donate all, or a specific amount
designated by the person, of the person’s daily
reimbursement under this chapter to:
(1) the compensation to victims of crime
fund under Subchapter B, Chapter 56, Code of
Criminal Procedure;
(2) the child welfare board of the county appointed under Section 264.005, Family Code;
(3) any program selected by the commissioners court that is operated by a public or private nonprofit organization and that provides
shelter and services to victims of family violence; or
(4) any other program approved by the commissioners court of the county, including a
program established under Article 56.04(f ),
Code of Criminal Procedure, that offers psychological counseling to jurors in criminal
cases involving graphic evidence or testimony.
Tex. Gov’t Code Ann. § 61.003(a) (Vernon Supp. 2008).
Appellant first raised his constitutional complaint
in a “supplemental” motion for new trial. He attached
a form purportedly distributed by the district clerk to
prospective jurors in his case, which stated in pertinent part:

24a
Chapter 61, Government Code, gives you the
right to donate all or a specific designated
amount of your jury payment to the Crime
Victim’s Compensation Fund or the County’s
Child Welfare Board. In addition to these two
organizations, the Commissioner’s Court may
select any other program operated by a public
or private nonprofit organization that provides shelter and services to victims of family
violence.
Several organizations were then listed: Advocacy
Center for Children of Galveston County, Resource &
Crisis Center of Galveston County; The Children’s
Center, Inc.; Crime Victim’s Compensation Fund; Children’s Protective Services Board; Prevent Blindness
Texas Gulf Coast; Laura Recovery Center Foundation;
and Boys & Girls Clubs of Galveston County.
Appellant’s motion for new trial was overruled by
operation of law.3

3

In appellant’s original motion for new trial, he presented no
issue regarding the constitutionality of this statute. His “supplemental” motion for new trial was untimely because it was filed
more than thirty days after the trial court imposed sentence in
open court. See Tex. R. App. P. 21.4(b). Further, appellant did not
file any affidavit, or cite any place in the record, showing the form
at issue or any similar form was actually distributed to prospective jurors. See Klapesky v. State, 256 S.W.3d 442, 454 (Tex. App.Austin 2008, pet. ref ’d) (recognizing, when the grounds for new
trial are outside the record, a defendant must support his motion
by his own affidavit or affidavit of someone with knowledge of the
facts and such a motion without supporting affidavit is not proper
pleading and is fatally defective). Nonetheless, even if the supplemental motion had been timely filed and we presumed the clerk

25a
Appellant contends his constitutional rights were
violated by distribution of the form because section
61.003 is unconstitutional, both facially and as applied
to him. When confronted with an attack on the constitutionality of a statute, we presume the statute is valid
and that the Legislature has not acted unreasonably
or arbitrarily. Rodriguez v. State, 93 S.W.3d 60, 69 (Tex.
Crim. App. 2002). The burden rests on the individual
challenging a statute to establish its unconstitutionality. Id. A facial challenge to a statute is the most difficult to mount successfully because the challenger must
establish that no set of circumstances exists under
which the statute will be valid. Santikos v. State, 836
S.W.2d 631, 633 (Tex. Crim. App. 1992). Because a statute may be valid as applied to one set of facts and invalid as applied to another, the challenger must first
show the statute is unconstitutional as applied to him
in his situation; that the statute may be unconstitutional as applied to others is insufficient to support a
facial challenge. Id.
Appellant argues that distribution of the form
caused juror bias against him and thus violated his
constitutional rights to due process, due course of law,
and trial by an impartial jury. Appellant has presented
no evidence that any jurors who sat on his case actually donated their compensation. Instead, appellant
seems to contend that mere distribution of the form
caused juror bias. As appellant notes, the enhancement
paragraph for purposes of his punishment involved a
complied with section 61.003 and distributed the attached form
or similar form, we conclude the statute is not unconstitutional.

26a
previous conviction for aggravated sexual assault of a
child. Thus, appellant apparently claims that the form
caused the jurors to be biased against him when assessing punishment for the charged offense by informing them of their right to donate to agencies serving
child victims.
However, several courts have rejected similar constitutional complaints even when some panel members
actually donated their compensation to agencies serving crime victims pursuant to section 61.003. For
example, in Harvey v. State, 123 S.W.3d 623, 627 (Tex.
App.-Texarkana 2003, pet. ref ’d) and Ruckman v.
State, 109 S.W.3d 524, 526 (Tex. App.-Tyler 2000, pet.
ref ’d), the charged offenses were aggravated sexual assault of a child. The defendants argued that jurors who
are sufficiently concerned about victims of crime or
children to donate their compensation are impliedly biased against an alleged child abuser. See Harvey, 123
S.W.3d at 631; Ruckman, 109 S.W.3d at 527-28. When
rejecting these complaints, the courts recognized that
“the doctrine of implied bias is limited in application to
those extreme situations where the relationship between a prospective juror and some aspect of the litigation is such that it is highly unlikely that the
average person could remain impartial in his deliberations under the circumstances.” Harvey, 123 S.W.3d at
633; Ruckman, 109 S.W.3d at 528. A defendant’s entitlement to impartial jurors on the question of whether
he committed the crime charged is entirely distinct
from the question of whether the crime itself is one
that arouses their moral passion. Harvey, 123 S.W.3d

27a
at 632; Ruckman, 109 S.W.3d at 528. A defendant is not
entitled to demand a jury impartial to the underlying
crime itself. Harvey, 123 S.W.3d at 632; Ruckman, 109
S.W.3d at 528. “A juror may deplore the crime underlying the action in which he or she has been called on
to serve, even donating to general funds designed to
assist complainants of that crime, and still be able to
impartially weigh the evidence presented as to a defendant’s guilt or innocence and, if the defendant is
found guilty, fairly assess punishment.” Harvey, 123
S.W.3d at 633.
Similarly, in Boone v. State, 60 S.W.3d 231, 236-37
(Tex. App.-Houston [14th Dist.] 2001, pet. ref ’d), the
defendant in a murder trial complained that merely
informing prospective jurors about their option to
donate caused bias by improperly heightening their
sympathy for crime victims. Relying on Ruckman,
our court rejected the contention that the jurors’
knowledge of a victims’ compensation fund or their
donations thereto demonstrated bias. Id. at 237.
Based on the reasoning of the above-cited cases,
we reject appellant’s suggestion that the jurors’
knowledge of their right to donate to agencies serving
child victims somehow caused them to be biased
against appellant when determining the weight to
assign his previous conviction for aggravated sexual
assault of a child in assessing punishment for the
charged offense. Because appellant fails to show section 61.003 is unconstitutional as applied to him, he
also cannot demonstrate the statute is unconstitutional on its face.

28a
Finally, appellant cites Valenzuela v. St. Paul Insurance Co., 878 S.W.2d 667, 670 (Tex. App.-San Antonio
1994, no pet.) to support his argument. However,
Valenzuela is distinguishable from the current case because its court criticized allegedly inappropriate comments made by the district judge to potential jurors.
Id.
In sum, the trial court did not err by failing to
grant appellant’s motion for new trial. We overrule appellant’s fourth and fifth issues.
We affirm the trial court’s judgment.

